U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mynor Abdiel Tun-Cos, et al. v. B. Perrotte, et al., No. 19-661
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 20,
2019. The government’s response is now due, after one extension, on January 22, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0661
TUN-COS, MYNOR ABDIEL, ET AL.
B. PERROTTE, ET AL.

SIMON Y. SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-778-3450
DAVID M. ZIONTS
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000

